INTEREST RATE AND INTEREST CHARGES
Annual Percentage Rate(APR) for
Purchases

13.99%

APR for Cash Advances

18.00%

How to avoid paying interest on
purchases
Minimum Interest Charge
For Credit Card Tips from the Consumer
Financial Protection Bureau

Fixed Rate
Your due date is at least 25 days after close of each billing cycle. We will not charge you interest on
purchases, cash advances and balance transfers if you pay entire balance by the due date.
N/A
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fixed Rate

FEES
Annual Fees
N/A
Transaction Fees
Up to $10.00
• Balance Transfer
Up to $10.00
• Cash Advance
N/A
• Foreign Fees
Phone payment penalty of $6.00
• Other
Penalty Fees
Up to $30.00
• Late Payment
N/A
• Over-the-Credit-Line
Up to $30.00
• Returned Payment
N/A
• Other
How We Will Calculate Your Balance: We use a method called “average daily balance”. See your account agreement for further information regarding
how we calculate your balance.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
Loss of Introductory APR: N/A
Purchase APR: Your Purchase rate is 13.99%. The monthly periodic rate of FINANCE CHARGES is 1/12th of the APR or 1.16583%.
Cash APR: Your Cash rate is 18%. The monthly periodic rate of FINANCE CHARGES is 1/12th of the APR or 1.5%.

